                                     SOCIAL SECURITY
KSMEMORANDUM

Date:   July 1, 2009                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Administrative
                     Expenses Incurred to Provide Economic Recovery Payments
        (A-06-09-29144)


        The attached final quick response evaluation presents the results of our review. Our
        objectives were to evaluate the Social Security Administration’s process for identifying
        and reporting costs incurred to administer economic recovery payments authorized as
        part of the American Recovery and Reinvestment Act of 2009.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION


  Administrative Expenses
    Incurred to Provide
Economic Recovery Payments
       A-06-09-29144




         July 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                          Background
OBJECTIVE
Our objective was to evaluate the Social Security Administration’s (SSA) process for
identifying and reporting costs incurred to administer economic recovery payments1
(ERP) authorized as part of the American Recovery and Reinvestment Act of 2009
(ARRA). 2

BACKGROUND
ARRA was signed into law on February 17, 2009. It provides for a one-time economic
recovery payment of $250 to certain adult Old-Age, Survivors, and Disability Insurance
beneficiaries and Supplemental Security Income recipients whose address of record is
1 of the 50 States, the District of Columbia, Puerto Rico, Guam, the U.S. Virgin Islands,
American Samoa, or the Northern Mariana Islands.3 SSA’s primary responsibilities in
implementing ARRA are to identify and certify those eligible to receive the one-time
payment; coordinate this information with the Railroad Retirement Board and
Department of Veterans Affairs to ensure no duplicate payments are issued; and
provide the information needed to disburse such payments to the Secretary of the
Treasury. 4 SSA estimates it will issue approximately $13.25 billion to 53 million
individuals from May 2009 through December 31, 2010, with the majority of payments
being made in May 2009. Additionally, SSA identified the following key activities to
provide timely and accurate information about the one-time payments to the public:

•     educate the public about the ERP,
•     notify eligible individuals before they receive the ERP,
•     provide the Secretary of the Treasury the information required to disburse payments
      to eligible individuals,
•     train employees on how to respond to inquiries related to ERP issuance,
•     process returned mail, and
•     re-issue undelivered checks.

1
    Also referred to as stimulus payments or one-time payments.
2
    Pub. L. No. 111-5, February 17, 2009.
3
 ARRA §§ 2201(a)(1)(A) and (a)(2). Eligible individuals generally include all (1) Old-Age, Survivors and
Disability Insurance beneficiaries except children and Medicare-only beneficiaries and (2) Supplemental
Security Insurance recipients except individuals receiving Medicaid in care facilities. See ARRA §
2201(a)(1)(B).
4
    ARRA §§ 2201(a)(3) and (b).


Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)                     1
To accomplish these tasks, ARRA provided SSA with $90 million for the administrative
expenses incurred. 5 These funds are available for SSA’s use beginning Fiscal
Year (FY) 2009 through FY 2011.

The Office of Management and Budget (OMB) issued two memorandums6 that provide
guidance for carrying out and reporting on the programs and activities enacted in ARRA
to effectively manage activities under ARRA. 7 Four critical elements of the OMB
guidance are transparency and reporting, information collection and dissemination,
budget execution, and risk management. 8 For example, the information collection and
dissemination guidance provides that agencies must ensure all funds are clearly
distinguishable from non-ARRA funds in all agency financial, business (that is, grant
and contract writing systems), and reporting systems. 9 OMB also requires that
agencies provide weekly reports that allow the Congress and taxpayers to track and
monitor use of the funds. 10 OMB will continue to provide updated guidance in response
to the concerns and issues brought forth by agencies.




5
    ARRA § 2201(e)(2)(B).
6
 M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009 and M-09-15, Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, April 3, 2009.
7
    Id.
8
    OMB, M-09-10 § 1.5.
9
    Id.
10
     OMB, M-09-10 § 1.5 and M-09-15 §§ 1.5 and 1.8.


Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)            2
                                                          Results of Review
SSA implemented a comprehensive process to identify and report costs incurred to
administer the ERPs. 11 We believe SSA sufficiently addressed OMB’s requirements,
which will allow for transparency and accountability in the use of ARRA administrative
funds and will provide SSA the ability to identify and track these expenditures separately
from its regular appropriations. SSA also timely submitted required weekly reports
summarizing administrative costs incurred.

CONTROLS AND OVERSIGHT OVER ADMINISTRATIVE EXPENSES

The Office of Financial Policy and Operations (OFPO), under the Deputy Commissioner
for Budget, Finance and Management, is the lead component in consolidating SSA’s
ERP administrative cost data. OFPO’s Office of Program Accounting Operations
(OPAO) is responsible for collecting all expense information (for example, staff time,
travel, contract expenditures) from various sources. OFPO’s Office of Finance (OF) is
responsible for recording the expenses received from OPAO in SSA’s financial
accounting system and ensuring the funds remain separate, in accordance with OMB’s
guidance. To comply with this guidance, OF established specific ERP-related common
accounting numbers (CAN) for components to charge their administrative expenses.

SSA implemented a multi-layered process to communicate with components involved in
the ERP administration. The primary communications were provided at the Deputy
Commissioner level based on SSA’s need to identify component contacts for tracking
staff time, provide the general parameters for tracking the time, and indicate the Deputy
Commissioner-level ARRA funding and resource allowances. Additionally, we found
that communications were sent to specific offices involved in the ERP and/or staff
members with designated ERP roles. At the time of our review, SSA was not
maintaining a central location with all related information regarding its efforts to track the
ERP administrative expenses; however, SSA was working on such a site. This
centralized site will assist in consistent, continued communication of SSA’s accounting
and reporting process.

OPAO and OF rely on information received from other components when collecting
expense data. OPAO and OF staff identified two primary potential risks affecting the
accuracy of administrative cost expenditure reporting: (1) under- or over-reporting staff
time and (2) components improperly reporting their costs. To mitigate these risks, OF
limited the number of components that have access to the ARRA CAN information. If a
component needs to make a direct charge, it must submit a request and provide a

11
   We did not assess the services procured or work performed by SSA employees in support of ERP
issuance. We limited this evaluation to a review of the process SSA implemented to identify and report
these costs. On May 15, 2009, we issued a separate report, Economic Recovery Payments for Social
Security and Supplemental Security Income Beneficiaries (A-09-09-29143), that identified several issues
SSA needed to address to prevent issuance of duplicate or erroneous ERPs. We also plan to perform a
series of additional reviews of SSA’s actual ARRA expenditures.


Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)                    3
justification to OF. For the direct charges made against the ARRA CANs, both offices
review the information to ensure they are proper. Additionally, to help mitigate the risk
of under- or over-reporting, OPAO reviews the staff hours reported for inconsistencies.
The Office of Operations also reviews the inquiry counts collected by field offices and
Teleservice Centers (TSC) to ensure reporting is in line with Agency activities.

SSA also implemented system controls over the input of data into the ARRA tracking
website. 12 Access to the website is limited to those appointed by each component and
authorized by OPAO. The information retrieved from the web tracking system and input
into the ARRA tracking spreadsheet is also verified by a second analyst before
management review.

TRACKING ADMINISTRATIVE EXPENDITURES

According to SSA’s initial estimates, most administrative costs associated with issuing
the ERP are front-end costs related to printing and mailing advance notices to ERP
beneficiaries, educating the public, training staff to handle inquiries, and system data
matches to ensure the proper individuals are identified to receive the payment. ARRA
provided up to $90 million to reimburse SSA for costs incurred to administer the ERPs.
SSA initially estimated its ERP-related administrative costs as follows.


                          Initial Estimate of ERP-Related
                            Administrative Expenditures


        Printing and
        Mailing Costs
         ($48 Million)                                                      Systems
                                                                       Development Costs
                                                                           ($5 Million)




                                                                          Salaries
                                                                        and Benefits
                                                                         ($37 Million)




12
 OPAO created the ARRA web tracking system to consolidate staff time information received from SSA
Headquarters and regional components.


Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)               4
Printing and Mailing Costs

SSA initially planned to incur approximately $48 million in costs associated with the
(1) printing and mailing of advance notices to approximately 53 million eligible one-time
payment recipients and (2) printing of ERP information leaflets provided to field offices
and Wal-Mart stores. SSA will charge these expenses against an ERP-specific CAN.
SSA originally intended to issue two separate informational mailings to ERP recipients.
However, based on the urgency of making these payments, SSA revised its original
plan and consolidated the two mailings into a single notice to all potentially eligible
individuals. By consolidating these mailings, SSA avoided approximately $20 million in
printing and mailing expenses. Consequently, SSA revised its ERP administrative
spending plan to reflect approximately $70 million in anticipated ERP administrative
costs.

                           SSA Spending Plan – One-time ERP
                                  FY 2009         FY 2010                         FY 2011
           st
          1 Quarter             $           -   $ 4,800,000                       $    60,000
           nd
          2 Quarter             $ 11,000,000    $ 4,100,000                       $    60,000
           rd
          3 Quarter             $ 44,200,000    $     940,000                     $    60,000
           th
          4 Quarter             $   4,800,000   $      60,000                     $    60,000
                    FY Totals   $ 60,000,000    $ 9,900,000                       $ 240,000
          Source: Information obtained from the SSA-provided ERP Spending Plan.


Salaries and Benefits and Systems Development Costs

Interviews with various SSA staff members indicated that SSA was proactive in tracking
staff time and systems development costs incurred to administer the one-time payment.
SSA’s Office of Operations accounts for and reports the field office and TSC staff
training costs associated with the ERP. Field office and TSC personnel time is tracked
based on the number of inquiries received. The inquiry costs include the number of
calls to the SSA National 800-number and the number of field office calls and visits.
The Office of Systems (Systems) established a unique ARRA ERP code to track its
staffs’ time related to specific jobs. Systems anticipated incurring expenses to conduct
the data matching runs with the Railroad Retirement Board and Department of Veterans
Affairs. Additionally, Systems plans to purchase extra computer storage space needed
to process and retain the records created by the ERP. Systems intends to charge these
costs against an ERP-specific CAN.

To consolidate information on staff time for Headquarters and regional personnel, SSA
developed a separate ARRA tracking website. This website allows component contacts
to input staff hours for their respective organizations. This information is consolidated at
the Deputy Commissioner level. OPAO reviews all final inputs and analyzes the
information for trends. If needed, OPAO requests support and/or clarification for staff
time inputs.




Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)          5
                                  Matters for Consideration
SSA took action in accordance with OMB ARRA guidance, identified potential
administrative costs to be incurred to provide the ERP, and implemented plans to track
and report the identified costs. As such, we believe SSA is positioned to account for
ERP-related administrative expenditures in a manner that will allow for transparency
and accountability of ARRA funds. We are encouraged by SSA’s decision to
consolidate informational mailings and reduce overall estimated administrative
expenditures by approximately $20 million.

SSA should continue its current efforts to centralize ARRA-related guidance to ensure
consistent communication to internal stakeholders. SSA should also consider providing
periodic updates and reminders to staff to ensure staff time and costs are properly
reported throughout the course of the $90 million appropriation life-cycle.




Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)   6
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)
                                                                        Appendix A

Acronyms

    ARRA               American Recovery and Reinvestment Act of 2009

    CAN                Common Accounting Number

    ERP                Economic Recovery Payment

    FY                 Fiscal Year

    OF                 Office of Finance

    OFPO               Office of Financial Policy and Operations

    OMB                Office of Management and Budget

    OPAO               Office of Program Accounting Operations

    SSA                Social Security Administration

    TSC                Teleservice Center




Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)
                                                                                   Appendix B

Scope and Methodology
To achieve our objective, we
•   reviewed the American Recovery and Reinvestment Act of 2009 (ARRA);
•   reviewed Office of Management and Budget (OMB) and White House ARRA
    guidance;

•   compared guidance issued by OMB to the plans developed by the Social Security
    Administration (SSA) for tracking administrative expenses associated with the
    economic recovery payments (ERP);

•   reviewed SSA supporting documents and Agency-issued guidance related to
    tracking administrative expenses associated with the ERP;

•   interviewed employees from SSA’s Offices of Operations and Budget, Finance and
    Management involved in tracking administrative expenses related to the issuance of
    one-time payments;

•   interviewed 10 component contacts who report staff hours for their offices; and

•   inquired about past administrative expenses and the Fiscal Year (FY) 2008
    Economic Stimulus payment and compared it to the plans for the FY 2009 ERP.

We performed our review from March through May 2009 in Dallas, Texas. We
conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s 1 Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008,
Pub. L. No. 110-409 § 7, 5 U.S.C. App. 3 § 11.


Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)
                                                                        Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Ronald Gunia, Director, Dallas Audit Division

       Jason Arrington, Audit Manager

Acknowledgments
In addition to those named above:

       Chasity Crawley, Program Analyst

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-09-29144.




Administrative Expenses Incurred to Provide Economic Recovery Payments (A-06-09-29144)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
